           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    DUALLY ENTITLED BENEFICIARIES
   WHO ARE SUBJECT TO GOVERNMENT
   PENSION OFFSET AND THE WINDFALL
        ELIMINATION PROVISION

    September 2008   A-09-07-27010




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      September 10, 2008                                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Dually Entitled Beneficiaries who are Subject to Government Pension Offset and the
           Windfall Elimination Provision (A-09-07-27010)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration (SSA)
           properly imposed the Government Pension Offset (GPO) and the Windfall Elimination
           Provision (WEP) for dually entitled beneficiaries.

           BACKGROUND

           The Social Security Act includes two provisions that reduce Social Security monthly
           benefits paid to individuals who receive a pension based on Federal, State, or local
           government employment that was not covered by Social Security. The WEP eliminates
           “windfall” Social Security benefits for retired and disabled workers receiving pensions
                                                                1
           from employment not covered by Social Security. Under this provision, a modified
           benefit formula is used to determine a wage earner’s monthly Social Security benefit. 2
           The GPO provision reduces monthly Social Security benefits for spouses, divorced
           spouses, and surviving spouses who receive a pension based on their own work for a
           Federal, State or local government that was not covered by Social Security. 3 The GPO
                                                                                  4
           reduction is generally equal to two-thirds of the government pension. Dually entitled
           beneficiaries, those entitled to retirement benefits (based on their own earnings) and
           spousal benefits (based on another person’s earnings) at the same time, are subject to
           both the WEP and GPO provisions.

           1
            The Social Security Act § 215(a)(7)(A), (d)(3), and (f)(9), 42 U.S.C. § 415(a)(7)(A), (d)(3), and (f)(9);
           20 C.F.R. §§ 404.213 and 404.243.
           2
            The Social Security Act § 215(a)(7)(B), 42 U.S.C. § 415(a)(7)(B); 20 C.F.R. § 404.213(c) and (d);
           SSA, Program Operations Manual System (POMS), RS 00605.360.
           3
               The Social Security Act § 202(k)(5), 42 U.S.C. § 402(k)(5); 20 C.F.R. § 404.408a.
           4
            The Social Security Act § 202(k)(5), 42 U.S.C. § 402(k)(5); 20 C.F.R. § 404.408a(d); SSA, POMS,
           GN 02608.100.
Page 2 - The Commissioner

To identify individuals who may be subject to WEP and GPO, SSA primarily relies on
applicants to report whether they are receiving, or will receive in the future, a pension
based on non-covered earnings. However, for retired Federal employees, SSA
receives monthly pension data from the Office of Personnel Management. 5

As of March 2007, we estimate there were approximately 153,900 dually entitled
beneficiaries with WEP imposed on their retirement or disability benefit and
approximately 170,000 dually entitled beneficiaries with GPO imposed on their spousal
benefit. 6

RESULTS OF REVIEW
We found that SSA needs to improve its controls and procedures to ensure GPO and
WEP are properly imposed for dually entitled beneficiaries. Based on our review of
2 random samples of 200 beneficiaries, we estimate that SSA overpaid about

     $269.8 million in retirement benefits to 8,500 beneficiaries because WEP was not
      properly applied, and

     $184.8 million in spousal benefits to 8,460 beneficiaries because GPO was not
      properly imposed.

Finally, unless SSA takes action to identify and correct these payment errors, we
estimate it will pay about $53.2 million in overpayments annually (see Appendix C).

These errors occurred because SSA did not have controls in place to ensure the
pension information it maintained for dually entitled beneficiaries was annotated to all
its records. Our sample results are summarized below.




5
    SSA, POMS, GN 02608.301and RS 00605.374.
6
 The Master Beneficiary Record (MBR) is divided into 20 segments with each segment representing
5 percent of all records. We identified a population of 7,695 dually entitled beneficiaries who had WEP
imposed on their retirement benefit from 1 segment of the MBR. As a result, we estimate that
approximately 153,900 beneficiaries (7,695 x 20) had WEP imposed on their retirement or disability
benefit. In addition, we identified a population of 8,500 dually entitled beneficiaries who had GPO imposed
on their spousal benefit from 1 segment of the MBR. As a result, we estimate that approximately
170,000 beneficiaries (8,500 x 20) had GPO imposed on their spousal benefit.
Page 3 - The Commissioner


                    Overpayments to Dually Entitled Beneficiaries
                            Subject to WEP and GPO
                        Based on Random Samples of 400 Beneficiaries
                  72 Beneficiaries                  *11 Beneficiaries
                Exempt from GPO or                 Overpaid, GPO Not
                       WEP                              Imposed




     *10 Beneficaries                                                                 307 Beneficiaries WEP
    Overpaid, WEP Not                                                                   and GPO Properly
         Imposed                                                                             Applied




                                                                * These errors are mutually exclusive.



WEP Payment Errors

Generally, if GPO has been applied to the spousal benefit, WEP should be applied to
the retirement benefit. However, under certain conditions, individuals may be granted
exceptions from WEP. For example, WEP does not apply to beneficiaries who were
eligible for retirement benefits before 1986 or to individuals with 30 or more years of
“substantial earnings.” 7 If WEP does not apply, the reason for an exception must be
annotated to the MBR, 8 which contains the beneficiary’s entitlement and payment
information. Finally, SSA should also document in its records any evidence it reviewed
to assess the applicability of WEP.

We estimate there were about 170,000 dually entitled beneficiaries with GPO imposed
on their spousal benefit. 9 Our review of a random sample of 200 of these beneficiaries
disclosed that SSA did not reduce the retirement benefits of 10 beneficiaries in
accordance with the WEP requirements. In addition, we found that SSA did not have
adequate paper or electronic documentation to support whether an exception to WEP
applied. As a result, the 10 beneficiaries were overpaid $317,447. Based on our
sample results, we estimate that 8,500 dually entitled beneficiaries were overpaid about
$269.8 million (see Appendix C).



7
 The Social Security Act § 215(a)(7)(D), 42 U.S.C. § 415(a)(7)(D); 20 C.F.R. § 404.213(e). For 2007,
$18,150 of covered wages was required to obtain a year of coverage (SSA, POMS, RS 00605.362).
8
    SSA, POMS, RS 00605.374.B.1.
9
    See Footnote 6 on p. 2.
Page 4 - The Commissioner

These 10 errors occurred because, when the individuals filed for retirement benefits,
they did not disclose they were receiving a pension based on noncovered earnings or
would receive a pension in the future, or SSA did not document pension information in
its records. However, we found that SSA had obtained pension information when the
individuals filed for spousal benefits. Although SSA reduced the payments for the
spousal benefit in accordance with the GPO provision, it did not take corrective actions
to reduce the retirement benefit in accordance with WEP or document that an exception
to WEP applied. Finally, we found that these errors were not prevented or detected
because SSA did not have a control in place to ensure pension information was
annotated to both retirement and spousal records (that is, MBRs) for dually entitled
beneficiaries.

For example, one beneficiary in our sample initially filed for retirement benefits in
July 1986 before receiving a noncovered pension. SSA’s records contained no
information indicating the beneficiary would be receiving a noncovered pension in the
future. In September 2002, the beneficiary filed for survivor’s benefits. At that time,
SSA documented the beneficiary was eligible for the pension beginning in September
1986 and reduced the payments for the spousal benefit effective September 2002 in
accordance with the GPO provision. However, the noncovered pension information
was not documented on the retirement benefit. Consequently, WEP was not applied to
the retirement benefit in accordance with its provision. As a result, SSA overpaid the
beneficiary $40,300 from September 1986 to December 2007.

GPO Payment Errors

Generally, if WEP has been applied to an individual’s retirement benefit, GPO should
be applied to the spousal benefit. However, under certain conditions, individuals
receiving spousal benefits may be granted exceptions from GPO. 10 For example, GPO
does not apply to individuals who were covered by both a government retirement
system and Social Security throughout their last 60 months of employment of Federal,
State, and local government service 11 or if the individual is receiving a non-covered
military reserve pension. 12 If GPO does not apply, the reason for an exception must be
                        13
annotated to the MBR, and documentation supporting the exception should be in
SSA’s records.




10
  The Social Security Act § 202(k)(5), 42 U.S.C. § 402(k)(5); 20 C.F.R. § 404.408a(b);
SSA, POMS, GN 02608.100.A.1.
11
     The Social Security Act § 202(k)(5)(A), 42 U.S.C § 402(k)(5)(A); SSA, POMS, GN 02608.107.
12
     The Social Security Act § 202(k)(5)(B)(i), 42 U.S.C. § 402(k)(5)(B)(i); SSA, POMS, GN 02608.700.
13
     SSA, POMS, GN 02608.200.A.4.
Page 5 - The Commissioner

We estimate there were about 153,900 dually entitled beneficiaries with WEP applied to
                          14
their retirement benefits. Our review of a random sample of 200 beneficiaries
disclosed that SSA did not reduce the spousal benefits of 11 beneficiaries in
accordance with the GPO provision. In addition, we found that SSA did not have
adequate paper or electronic documentation to support whether an exception to GPO
applied. As a result, the 11 beneficiaries were overpaid $240,198. Based on our
sample results, we estimate that 8,460 dually entitled beneficiaries were overpaid
approximately $184.8 million (see Appendix C).

For the 11 beneficiaries, SSA had obtained and recorded information about the
noncovered pensions on the beneficiaries’ retirement records (that is, MBRs) and
reduced the benefit payments in accordance with WEP. However, because of
administrative oversight, SSA had not used the information to reduce the spousal
benefit in accordance with the GPO provision or document that an exception to GPO
applied. Finally, we found that these errors were not prevented or detected because
SSA did not have a control in place to ensure pension information was annotated to
both payment records (that is, MBRs) for dually entitled individuals.

For example, one beneficiary in our sample started receiving retirement and spousal
benefits in April 1999. The pension information was documented on the retirement
record but not on the spousal record. WEP was applied to the retirement benefit when
the beneficiary started receiving the noncovered government pension. However, GPO
was not applied to the spousal benefit. As a result, SSA overpaid the beneficiary
$49,000 between April 1999 and December 2007.

CONCLUSION AND RECOMMENDATIONS

SSA needs to improve its controls and procedures to ensure GPO and WEP are
properly imposed for dually entitled beneficiaries. Specifically, our review identified an
estimated 8,500 beneficiaries who were overpaid about $269.8 million in retirement
benefits because WEP was not properly applied and 8,460 beneficiaries who were
overpaid about $184.8 million in spousal benefits because GPO was not properly
imposed. Finally, unless SSA takes corrective action to identify and correct these
payment errors, we estimate it will pay approximately $53.2 million in overpayments
annually (see Appendix C).




14
     See Footnote 6 on p. 2.
Page 6 - The Commissioner

We recommend that SSA:

1. Take corrective action to establish overpayments or determine whether a WEP or
   GPO exception applies for the beneficiaries identified by our audit.

2. Identify and take corrective action on the population of dually entitled beneficiaries
   who may be overpaid because WEP or GPO was not properly imposed.

3. Improve controls to ensure that pension information based on non-covered
   employment for dually entitled beneficiaries is properly recorded on all beneficiary
   payment records (that is, MBRs).

4. Remind employees to review pension information on all SSA payment records for
   dually entitled beneficiaries.

AGENCY COMMENTS

SSA agreed with all of our recommendations. See Appendix D for the text of SSA’s
comments.




                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                          Appendix A

Acronyms
GPO    Government Pension Offset
MBR    Master Beneficiary Record
OIG    Office of the Inspector General
POMS   Program Operations Manual System
SSA    Social Security Administration
WEP    Windfall Elimination Provision
                                                                     Appendix B

Scope and Methodology
We obtained two data extracts from which we identified two populations. The first
population consisted of 8,500 dually entitled Old-Age, Survivors and Disability
Insurance beneficiaries who had Government Pension Offset (GPO) data recorded on
their spousal or surviving spousal benefit. The second population consisted of
7,695 Old-Age, Survivors and Disability Insurance beneficiaries who had Windfall
Elimination Provision (WEP) data recorded on their record. We randomly selected a
sample of 200 beneficiaries from each population.

To achieve our objective, we

•   reviewed the applicable sections of the Social Security Act, U.S. Code, and the
    Social Security Administration’s (SSA) Program Operations Manual System;

•   interviewed SSA employees from the Western Program Service Center and
    Baltimore, Maryland;

•   reviewed prior audit reports pertaining to GPO and WEP;

•   obtained necessary files from the Master Beneficiary Record, Detailed Earning
    Query, Modernized Claims System, and Modernized Development Worksheet;

•   reviewed SSA’s paperless system, Shared Process System, and the Non Disability
    Repository for Evidentiary Documents for supporting documentation; and

•   obtained and reviewed case folders, as needed.

We determined whether the computer-processed data were sufficiently reliable for our
intended use. We conducted tests to determine the completeness and accuracy of the
data. These tests allowed us to assess the reliability of the data and achieve our audit
objectives.

We performed our work in Richmond, California, between September 2007 and
May 2008. The entities reviewed were the Offices of Operations and Systems. We
conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective.
                                                                         Appendix C

Sampling Methodology and Results
We obtained two data extracts from a 5 percent segment of the Master Beneficiary
Record (MBR). The data extracts consisted of

1. spouse and surviving spouse beneficiaries who had Government Pension Offset
   (GPO), and

2. retirement beneficiaries whose benefits were based on the Windfall Elimination
   Provision (WEP).

Spouses with GPO

We refined this population to include only beneficiaries who had an initial entitlement
date after 1985 and were entitled to a retirement benefit. This resulted in a population
of 8,500 beneficiaries. From this population, we randomly selected a sample of
200 beneficiaries for review. For each beneficiary in our sample, we determined
whether the Social Security Administration (SSA) properly applied WEP to the
retirement benefits by reviewing information from the MBR, Master Earnings File,
Modernized Claims System and the Modernized Development Worksheet. In addition,
we reviewed SSA’s Paperless System, Shared Process System, and the Non Disability
Repository for Evidentiary Documents. Finally, we obtained and reviewed case folders,
as necessary.

Of the 200 beneficiaries in our sample, we found that SSA overpaid $317,447 to
10 beneficiaries. This occurred because their retirement benefits were subject to WEP.
Estimating these results to all 20 segments of the MBR, SSA overpaid about
$269.8 million to 8,500 beneficiaries. The following tables provide the details of our
sample results, statistical projections, and estimates.

                Table 1: Population and Sample Size                          Number
 Population Size (data extract from 1 segment)                                   8,500
 Sample Size                                                                       200
 Estimated Number in Universe (Population Size x 20 segments)                  170,000

                Table 2: Overpayments                           Number       Amount
 Sample Results (for 1 segment)                                       10      $317,447
 Point Estimate (for 1 segment)                                      425    $13,491,480
 Projection - Lower Limit                                            235     $6,256,354
 Projection - Upper Limit                                            705    $20,726,605
 Population Estimate (Point Estimate x 20 segments)                8,500   $269,829,600
Note: All projections are at the 90-percent confidence level.



                                                    C-1
To estimate the annual amount of overpayments that would occur if SSA does not take
corrective action to identify and correct payment errors related to the improper
application of WEP, we used our population estimates and the average overpayment
amount in 2007 for our sampled beneficiaries. Using this methodology, we estimate
that SSA will overpay about $21 million ($2,469 x 8,500 = $20,986,500) in retirement
benefits.

Retirees with WEP

We refined this population to include beneficiaries who were also entitled to a spousal
benefit. This resulted in a population of 7,695 beneficiaries. From this population, we
randomly selected a sample of 200 beneficiaries for review. For each beneficiary in our
sample, we determined whether SSA properly imposed GPO to the spousal benefit by
reviewing information from the MBR, Master Earnings File, Modernized Claims System
and the Modernized Development Worksheet. In addition, we reviewed SSA’s
Paperless System, Shared Process System, and the Non Disability Repository for
Evidentiary Documents. Finally, we obtained and reviewed case folders, as necessary.

Of the 200 beneficiaries in our sample, we found that SSA overpaid $240,198 to
11 beneficiaries. This occurred because their spousal benefits were subject to GPO.
Estimating these results to all 20 segments of the MBR, SSA overpaid about
$184.8 million to 8,460 beneficiaries. The following tables provide the details of our
sample results, statistical projections, and estimates.

                Table 3: Population and Sample Size                          Number
 Population Size (data extract from 1 segment)                                   7,695
 Sample Size                                                                       200
 Estimated Number in Universe (Population Size x 20 segments)                  153,900

           Table 4: Overpayment Payments                        Number       Amount
 Sample Results (for 1 segment)                                       11      $240,198
 Point Estimate (for 1 segment)                                      423     $9,241,646
 Projection - Lower Limit                                            242     $3,831,505
 Projection - Upper Limit                                            684    $14,651,788
 Population Estimate (Point Estimate x 20 segments)                8,460   $184,832,920
Note: All projections are at the 90-percent confidence level.

To estimate the annual amount of overpayments that would occur if SSA does not take
corrective action to identify and correct payment errors related to the improper
application of GPO, we used our population estimates and the average overpayment
amount in 2007 for our sampled beneficiaries. Using this methodology, we estimate
that SSA will overpay about $32.2 million ($3,810 x 8,460 = $32,232,600) in spousal
benefits.




                                                    C-2
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      August 28, 2008                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster         /s/ (Jim Winn for David Foster)
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, "Dually Entitled Beneficiaries Who Are
           Subject to Government Pension Offset and the Windfall Elimination Provision" (A-09-07-
           27010)—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "DUALLY ENTITLED BENEFICIARIES WHO ARE SUBJECT TO
GOVERNMENT PENSION OFFSET AND THE WINDFALL ELIMINATION
PROVISION" (A-09-07-27010)


Thank you for the opportunity to review and comment on the draft report. We support initiatives
that help strengthen our ability to ensure good stewardship for our programs. We are encouraged
that the review found that we are making accurate payments to
95 percent of the population. For the remaining 5 percent, we do not believe the results of this
review provide enough evidence to estimate or project overpayment amounts. Below are our
responses to the specific recommendations.

Recommendation 1

Take corrective action to establish overpayments or determine whether a Windfall Elimination
Provision (WEP) or Government Pension Offset (GPO) exception applies for the beneficiaries
identified by our audit.

Response

We agree. Once we receive the cases from OIG, we will review the information and take
necessary action.

Recommendation 2

Identify and take corrective action on the population of dually entitled beneficiaries who may be
overpaid because WEP or GPO was not properly imposed.

Response

We agree in principle, but before committing to review possibly 300,000 records, we would have
to carefully examine the cases identified in this audit to determine if such a large scale review is
truly warranted. Given the information we presently have, we are not convinced the
overpayment problem is as extensive as you suggest. For instance, in the example cited on page
4, the overpayment (from 1986 to 2002) could not have been prevented based on the criteria in
the study since the beneficiary did not file for the Widow(er)'s Insurance Benefit until 2002.
Regarding the 10 WEP and 11 GPO cases in this review, an exemption may have applied, but
was not documented. Therefore, we will defer extensive action on this recommendation until we
have had the opportunity to review the cases in greater detail.




                                                D-2
Recommendation 3

Improve controls to ensure that pension information based on non-covered employment for
dually entitled beneficiaries is properly recorded on all beneficiary payment records (that is,
Master Beneficiary Records).

Response

We agree in principle. The best approach for obtaining and recording this type of information
would be to establish computer matches between our records and State/local pension
information. However, at the present time, a match program of this type is not possible due to
limited systems resources. In the interim, we believe our review of the cases and the issuance of
a reminder will help improve controls.

Recommendation 4

Remind employees to review pension information on all payment records for dually entitled
beneficiaries.

Response

We agree. We will issue a reminder that will include information on any specific patterns or
trends obtained from our review of the cases.




                                                D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Joseph Robleto, Audit Manager, (510) 970-1737

Acknowledgments

In addition to those named above:

   Manfei Lau, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-07-27010.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
